Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




CHILD SUPPORT FOR CHILDREN IN
      STATE FOSTER CARE




                     OEI-04-91-00980
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION                    AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General and Christopher Koehler, Deputy Regional Inspector
General. Principal OEI staff included:

Atlanta Region                                                               Headquartm

Maureen Wilce, Project Leader                                                David Wright

Ron Kalil, Team Leader                                                       W. Mark Krushat

Ruth Reiser

Paula Bowker


For additionalcopies of thii repoq please contact the Atlanta Regi”onalOffice by telephone, at
(404) 331-4108, or by FM, at (404) 730-2308.
                EXECUTIVE                         SUMMARY

PURPOSE

To determine potential for collecting   child support   from biological   parents   of children
in State foster care programs.

BACKGROUND

Foster care agencies are required torefer the biological parents of children infester
care to child support enforcement agencies, mdjijachild’s    care is funded by Title
IV-E of the Social Security Act. To be eligible for Title IV-E foster care, a child must
have been removed from a low income family that is eligible for Aid to Families with
Dependent Children (AFDC). However, more than 260,000 children in foster care
nationwide are not in the Title IV-E foster care program. These children, “non-IV-E”
foster care children, have been removed from homes where the family’s income may
be substantially higher than the AFDC limit. Non-IV-E foster care is funded partially
through Title IV-B in addition to State monies. We had previously issued a report
regarding IV-E children. It is the “non-IV-E’ children who are the subject of this
report.

METHODOLOGY

We asked nine States to sample children in non-IV-E foster care and send us basic
identifying information. We traced this information to State child support
enforcement agencies to determine the extent of child support collections. We also
searched Social Security Administration’s (SSA) Earning Reference Files (ERF) to
calculate the potential for biological parents of non-IV-E foster care children to pay
child support.

FINDINGS

Child Support Was Collected On Behalf Of 9 Percent Of Non-IV-E Foster Care
Children

During 1991, Child Support Enforcement agencies collected child support payments
from parents of 7 percent (42) of the 593 non-IV-E foster care children in our sample.
This represents 9 percent of non-IV-E foster care children nationally.

State Emphasis On Collecting Child Support Is Low

State foster    care agency records are inadequate    for pursuing child support because
foster care    agency caseworkers do not routinely    and systematically collect basic
information     needed for pursuing child support.    Only 35 percent of parents are
referred to    child support enforcement agencies    for possible collections. Since few


                                              i
referrals are made, and information on the parents is often inadequate, child support
orders are established for only about 12 percent of non-IV-E foster care children.

StatesHave Potential To Increase Child Support Collections For Non-IV-E Foster
Care Children

Many parents of children in non-IV-E foster care have financial resources to pay child
support on behalf of their child. Since, unlike traditional child support cases, children
in foster care have two absent parents, States can increase collections by pursuing
child support from both parents. States also can increase child support collections
through better management of the child support collection process. Management of
the process should include collecting information on all parents of children in
non-IV-E foster care, referring the parents to child support agencies, establishing
support orders and actually collecting child support payments. If child support
collections were made on behalf of just half of the children in non-IV-E foster care,
$193,8 million would have been collected in 1991. Administrative costs of collecting
child support would reduce the amount of collections available for improving child
welfare services. However, the administrative costs to child support enforcement
agencies can be lessened if foster care agencies (1) obtain adequate information on
parents when a child enters the system, and (2) refer all appropriate cases for services.

CONCLUSION

Failure to collect child support on behalf of non-IV-E foster care children decreases
opportunities to obtain needed resources for providing child welfare services. Since no
Federal policies mandate that child support services be pursued for children in non-
IV-E foster care, many may believe that child support cannot, or should not, be
pursued on behalf of these children. Because of this, children are being denied
important services, such as locating absent parents and paternity establishment which
allows a child to have inheritance and insurance rights. Additionally, biological parents
may be able to provide medical insurance which covers a child’s medical expenses.

RECOMMENDATIONS

We believe foster care agencies need to review each foster care case to determine if
pursuing child support collections is in the best interest of a foster care child. Then,
for those foster care children for whom child support is appropriate, foster care
agencies should work cooperatively with child support agencies to pursue child support
as a routine part of the process of building parental responsibility. To this end, we
have two recommendations.

The Administration for Children and Families (ACF) should encourage States to
extend child support services to all children in foster care, regardless of the funding
source for a child’s foster care. They can do this by instructing States to improve data
gathering and referral systems. ACF can provide States with guidance and plans to
improve coordination between foster care and child support programs. ACF can also


                                            ii
seek legislation to require child support on behalf of &l foster care children, “where
appropriate.” Such legislation should be the same as that presently in place for
children in IV-E foster care.

Other organizations interested in foster care and child support should also encourage
States to seek child support for non-IV-E foster care children whenever appropriate.
Such organizations include, but are not limited to, the National Governors Association,
the National Association of State Budget Officers, the National Conference of State
Legislatures, the National Council of State Human Services Administrators of the
American Public Welfare Association (APWA), and the Child Welfare League of
America (CWLA).


AGENCY     COMMENTS

We thank ACF, ASPE, CWLA, and the States of Washington and New York through
the APWA for their comments on our report. They agreed with our findings and
recommendations, although ACF and ASPE noted that whether or not to pursue child
support collections should be determined on a case-by-case basis. We made
appropriate revisions in the report based on their comments. We present the full text
of comments in appendix D.




                                            ...
                                            111
                TABLE                 OF CONTENTS

                                                                                                         PAGE


EXE~         s~y
                                                                                                                 .1

INTRODU~ION       ... .... ... .................. .. ....... ..... .. ....

HNDINGS
                                                                                                                   5
 Few Child Support Collections&e          Made        ..............................
                                                                                                                    5
 State Emphasis OnCollectingIs        Low . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                    8
 Collections Potentially CanBe      Increased
                                     ...............................
                                                                  ..12

CON~USION        ................................................
                                                                    . 13
RECOm~ATIONS                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . .
                                                                                                                 . 14
AGENm      COm~             ..........................................

APPENDICES
                                                                                                          . .. A-I
  Methodology   ...............................................
                                                                                                                 . B-1
  The Foster Care Process      ........................................
                                                                                                                 . c-1
  Estimation Of Potential Collections
                                   ................................
                                                                   . . D-1

  Agency Comments      ...........................................
                         INTRODUCTION


PURPOSE

To determine potential for collecting child support from biological parents of children
in State foster care programs.

BACKGROUND

This report describes the potential for collecting child support for foster children who
are not eligible for the Title IV-E foster care program. Tobe eligible for Title IV-E
foster care, a child must have been removed from a low income family that is eligible
for Aid to Families with Dependent Children (AFDC). While no requirement exists
to report the number of children in foster care, estimates show that more than 260,000
foster children nationwide are not in the Title IV-E foster care program. These
children, “non-IV-E’ foster care children, have been removed from homes where the
family’s income may be substantially higher than the AFDC limit.

The Child Support Amendments of 1984 require foster care agencies to refer Title
IV-E foster children for child support, where appropriate. No such requirement exists
for foster children who were removed from homes where income may exceed AFDC
eligibility limits, and who are, therefore, ineligible for the Title IV-E foster care
program.

In May of 1992 the Office of Inspector General released a report on Child Support
Collections for IV-E Foster Care Children (OEI-04-91-00530). That report described
the extent to which States collect child support on behalf of Title IV-E foster care
children.

At the Federal level, the Administration for Children and Families (ACF) within the
Department of Health and Human Services (HHS) administers both foster care and
child support enforcement programs. Foster Care is operated under the
Administration for Children, Youth and Families (ACYF). Child support enforcement
is operated under the Office of Child Support Enforcement (OCSE).

What Is Foster Care

Foster care is temporary removal of a child to live with someone other than a parent
or usual caretaker during a time of crisis in a family.

Each State is responsible for establishing and operating foster care programs under
provisions of Federal statutes and HHS guidelines. Foster care agencies provide the
following services.




                                             1

                             FOSTER CARE SERVICES


      �    Make Reasonable Efforts to Prevent Removal of Child From Parents

      �    Remove Child from an Unsafe EnvironmentWhen Necessary

      �    Place Child in Appropriate Foster Care

      b    Plan for Child’s Long Term Welfare

      �	   Where Appropriate, Refer Parent(s) and Child for Child Support
           serviees



How Is Foster Care Funded

Foster care is funded through Federal, State and local promams. Federal funding is
available primarily under two programs -- Title IV-E and ;itle IV-B of the Social_
Security Act.

Title IV-E funds foster care services for children who would be eligible to receive
AFDC if they were living in the home of birth parents or specified relatives at the
time of removal from that home. Such funds are provided to States as an entitlement.
States match Federal funds for the care of each Title IV-E-eligible child. In FY 1991,
the Federal share reached $1.8 billion.

Title IV-B funds a variety of State child welfare programs, including foster care for
any child, regardless of parent’s income. In FY 1991, the Federal government
appropriated $274 million under Title IV-B for State child welfare service grants.
Each State grant is based on the population of children, States often spend Title IV-B
funds on foster care for children not covered by Title IV-E. However, State and local
funds are the primary funding mechanisms for foster care for non-IV-E eligible
children.

What Is Chili Suppoti

Child support is a monetary payment made by an absent parent to provide for his or
her child. An absent parent is one who is not residing in the same home as a child.

Each State establishes and operates child support programs under provisions of
Federal statutes and HHS guidelines. Child support enforcement agencies open a
case on an absent parent when they receive a request, or referral, for services on
behalf of a child. Once a case is opened a child support agency provides the following
services.




                                            2

                             CHILD SUPPORT SERVICES

               �   Locate Parents

               �    EstablishPaternity

               �    Obtain a Child Support Order

               �    Colkxt and Distniute Child Support



What Are Federal Requirements For I?.muing Child Support

Title IV-D of the Social Security Act created the child support enforcement program
in 1975. This legislation authorized child support agencies to obtain support orders
and collect child support on behalf of all children included in an AFDC grant. The
program goals are to (1) increase family (parental) responsibility, and (2) reduce costs
of public assistance for taxpayers, especially AFDC costs.

The 1984 Child Support Amendments Act required child support for one class of
foster care children -- those that meet AFDC eligibility criteria and are, therefore,
covered under Title IV-E. The 1984 amendments to the Act required foster care
agencies to refer the biological parents of children in Title IV-E foster care for child
support “where appropriate.” Any child support that is collected must be distributed
to appropriate State and Federal foster care agencies to offset costs of foster care.

The 1984 Amendments also allowed child support services to be extended to anyone
requesting the services. This theoretically allowed services to be provided to children
in non-IV-E foster care, provided that someone requests such services. However, the
1984 amendments do not reauire foster care agencies to refer biological parents of
non-IV-E foster care children for child support.

Like Title IV-E foster care children, both parents of non-IV-E foster care children no
longer have custody of their child. Unlike Title IV-E children, the parents of non-lV-
E foster care children may have incomes or assets that are sufficiently high so as to
disqualify them for AFDC.

METHODOLOGY

To determine potential for collecting child support for non-IV-E foster care children,
we randomly selected 10 States with probability proportional to size. Title IV-B
allocations to States for FY 1991 determined size. Nine States responded to our
requests for information within our study time frame. We conducted our review
between March and November 1992.




                                             3



                                                                                           —
From each of the nine State foster care agencies, we requested a random sample of 70
non-IV-E foster care children, as of December 31, 1991. The 9 States furnished the
names of 630 foster care children. Thirty-seven of the sampled children did not meet
our criteria, leaving us with a sample size of 593 children.

Next, we determined if child support was pursued for the sampled children. We used
a standardized data collection instrument to request names, Social Security numbers
and dates of birth for sampled foster care children and their biological parents. After
receiving the information, we contacted each State child support enforcement agency
to determine if any parents of the children had been referred to a child support
enforcement agency and the status of any cases that had been referred. If collections
were made, we requested information on how the money was distributed.

To determine 1991 earnings by parents of sampled foster care children, we matched
each parent’s Social Security number, when available, with Social Security
Administration’s (SSA) Earning Reference Files (ERF). We then calculated the
amount of funds available to foster care agencies if they pursued child support from
biological parents. We used a child support formula of 17 percent~ of earnings to
estimate potential funds available for child support. To estimate potential child
support collections nationwide, we weighted our sample results to represent non-IV-E
foster care children nationally.

Appendix A fully describes our data collection and analysis methods.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




     ~ Federal guidelines allow States wide latitude in what formula to use in collecting
child support. As a result, States have selected a wide variety of formulas, and we could
not find a child support formula that was applicable in all States. Therefore, to estimate
potential for collecting child support for non-%E foster care children, we chose one of
the simplest child support formulas - 17percent of earnings, T}zisfo~mula is currently
being used in Wisconsin. Actual child support collections will vaiy by State depending on
their respective child support formulas and specific factors of each foster care case.


                                             4
                                FINDINGS


CHILD SUPPORT WAS COLLECTED ON BEHALF OF 9 PERCENT OF
NON-IV-E FOSTER CARE CHILDREN

During 1991, Child Support Enforcement agencies collected support payments from
parents of 7 percent (42) of the 593 non-IV-E foster care children in our sample. This
represents 9 percent of non-IV-E foster care children nationally.2 About 4 percent
(52) of the 1186 biological parents of the 593 foster children paid child support. Both
parents paid child support for only 10 of the 42 children. For the remaining 32
children, only one of their parents paid support on their behalf.

Some States were more successful than others in collecting child support from parents
of non-IV-E foster care children. Two of the nine States in our sample accounted for
about 71 percent of the child support collected. Three States accounted for 29
percent and 4 States collected no child support for sampled non-IV-E foster care
children.

STATE EMPHASIS ON COLLECTING               CHILD SUPPORT IS LOW

State Foster Care Agency Recor& Are Inadequate For l%rsuing Ckikl Support

Foster care agency caseworkers do not routinely and systematically collect basic
information needed for pursuing child support. To illustrate, State foster care
agencies could provide us with the names of about 70 percent (830) of the 1186
parents of foster care children in our sample. Likewise, they had dates of birth for
only 57 percent of the parents and Social Security numbers for only 48 percent of the
parents.

Child support enforcement staff often had more information than foster care agency
staff on parents of foster care children. In some instances, child support enforcement
agency staff had established a child support case before a child was placed in foster
care, To illustrate, child support enforcement agencies were able to supply us with 52
names of parents who were listed as “unknown” by appropriate foster care agencies.
Further, child support enforcement agencies furnished us with 26 dates of birth that
appropriate foster care agency staffs could not provide.




     2 In our sample, we did not select the number of cases in each State propotiionate to
the number of children in non-IV-E foster care. To obtain a more accurate national
estimate, our data was weighted during analysis to reflect the variance in non-IV-E foster
care populations.



                                             5

Such basic information is essential for collecting child support, and for providing other
services to the families of children in foster care such as counseling and parental
training. Failure to share such needed information can limit child support that helps
defray public assistance, and it adversely affects the provision of child support services
to foster care children. Further, independently collecting the same information results
in inefficient use of staff time and resources in both foster care and child support
agencies.

lldrty-jive Percent of Parents Are Referred To Chiki Support Enforcement Agencies For
Possible Collections

Foster care agencies,3 a biological parent, AFDC eligibility offices, or courts referred
29 percent (349) of the 1186 parents of sampled non-IV-E foster care children for
child support. This projects to 35 percent of parents nationally. This means that no
attempt was made to collect child support from 65 percent of the parents of non-IV-E
foster care children. Without a referral, child support enforcement agencies cannot
provide services, including establishing paternity, locating parents, and evaluating a
parent’s potential for contributing to the support of his or her child.

                        35 Percent of Parents Are Referred
                            To Child Support Agencies




                                                                ferred   35%




                     Not Referred   65




Chikl Support Ordem Are Established For 12 Percent ~Non-IV-E              Foster Care Chikiren

A child support order must be established to collect child support from biological
parents. Child support agencies had established support orders for 11 percent (67) of
the 593 non-IV-E foster care children in our sample. This projects to 12 percent of


    3 Records at foster care agencies were inadequate for determining the precise number
of referrals. In practice, child suppoti agencies often initiate child support services without
a referral from foster care agencies.


                                               6
non-IV-E foster care children nationally. A total of 89 parents were ordered to pay
support on behalf of sampled children. This represents about 25 percent of the 349
parents who were referred to child support. Both parents were ordered to pay child
support on behalf of 22 of the 67 children for which support orders were established.

i%wrzty-eightPercent Of Ihe Refenvd Foster Care Cases Are Open But Incorrect&
Classified

Of the 349 parents referred to child support enforcement agencies, 28 percent of the
cases were open but not correctly classified. The foster care agency was not named as
the custodia; of the child, and, therefore, could not be the ulti%at; recipient of
collections made on a child’s behalf. Some of the 9 States in our sample classified
zero cases correctly while other States classified as high as 92 percent correctly.

Thirty percent of the cases were closed and, therefore, inactive. Although we did not
assess reasons for closure as part of this review, some cases may have been closed
because pursuing child support was not considered to be in best interests of a child.

The remaining 42 percent were open and classified as foster care cases. For these
cases, child support enforcement agencies indicated that services were appropriately
provided. The chart below summarizes the classification of sampled non-IV-E foster
care cases referred to child support enforcement agencies.


                   Status Of Non-IV-E Foster Care Cases Referred
                              To Child Support Agencies


         Cases Open But Incorrectly Classified                   28%

         Closed Cases                                             30%

         Cases Open as Non-IV-E Foster Care Cases                &J

                                                                  100%

Correct classification helps ensure that monies collected on behalf of foster care
children are correctly distributed to the foster care program. Ultimately, incorrect
classification resulted in child support paid by 17 percent of parents being incorrectly
distributed. We describe the distribution of child support collections in a companion
management advisory report titled “Incorrect Distribution Of Child Support Collected
On Behalf Of Non-IV-E Foster Care Children” (OEI-04-91-00981).




                                            7

STATESHAVE POTENTIAL TO INCREASE CHILD SUPPORT COLLECTIONS
FOR NON-IV-E FOSTER CARE CHILDREN

Many Parents Of Children In Non-IV-E Foster Care Have Financial Resources To Pay
Chiki Support On Behalf Of Their Chiki

The children in our sample were not eligible for foster care under Title IV-E. This
may be because their family income and assets exceeded AFDC eligibility limits.

The biological parents of about 44 percent (263 of 593) of our sampled non-IV-E
foster care children reported earning a total of 2.4 million dollars4 in 1991. To
estimate potential child support we used 17 percent of gross income. Based on 17
percent of their income, the parents of the 263 children should have paid a total of
$403,000 per year in child support for their children. However, they actually paid a
total of $19,521. This represented about 45 percent of the total child support
collected during 1991 for our sampled children.

We were unable to determine     the extent that parents had income such as disability
compensation, interest income, or dividend income. However, 55 percent of the total
child support actually paid for 7 percent (42 of 593) of our sampled children was paid
by parents who either reported no earnings, or whose records were inadequate to
determine earnings. Child support from these parents totaled $23,386.

States Can Increase Collections By Pumuing Child Support From Both Parents

Most States historically pursued child support from

only one parent, usually the father. Non-IV-E

foster care children potentially have two biological                         9

parents who may contribute to their support. Child                  Foster   Care Child

support may be collected from either the biological

mother, the biological father, or, in some situations,

both parents. Nationally, our sample shows that

some States do not consider or pursue child support           h+

payments from mothers. However, the States in

                                                             Blologlcal            Blologlcal

our sample that are most effective in collecting child        Father                 Mother
support were those that collected from both
parents.




    4 Because of inadequate records, we could not determine incomes for the parents of
the remaining 56 percent of our sampled non-W-E foster care children.


                                             8
Sates Can Increase Child Support Collections lhrough Better Management of the l+ocess

Regardless of the type of foster care, the process for collecting child support includes
four major steps. They are

o	     collecting basic information on biological parents, such as name and Social
       Security numbers,

o      referring parents of foster care children to child support enforcement   agencies,

o      establishing child support orders, and

o      collecting child support.

Appendix B provides detailed information on the process of placing a child in foster

care and collecting child support.


Failure to carry out any one of the first three steps has a direct relationship to the

amount of child support collected. Despite the ability of many parents to pay child

support, foster care agencies frequently do not (1) collect adequate information for

pursuing child support, or (2) refer foster care cases for child support collection. In

instances where foster care agencies did refer biological parents to child support

agencies for possible collections, child support agencies obtained support orders for

only about 25 percent of the parents. As a result, States collected child support for

only about 9 percent of non-IV-E foster care children.


Two of the nine States in our sample, Washington and North Carolina, showed that

better management of each step in the process does increase overall collection of child

support. For example, each of the 2 State foster care agencies recorded basic

information such as parents name for over 90 percent of the parents as compared to

70 percent for the States overall. They also referred almost 60 percent of the parents

to child support agencies for possible collections as compared to 29 percent overall for

the 9 selected States. As a result, child support agencies in the 2 States collected child

support from over 15 percent of the parents of non-IV-E foster care children.

Overall, the 9 States in our sample collected child support from about 4 percent of the

parents of non-IV-E foster care children.





                                             9

The following chart illustrates the potential for improvement in each of the four key
steps for collecting child support on behalf of non-IV-E foster care children. Based on
our sample, the blackened area shows States’ current performance in each step toward
collecting child support on behalf of foster care children. The white area shows the
extent of opportunity to improve performance.




                                        Opportunity to Improve
                                        Child Support Collections


                 %
       100




        8Q~
         .. .4....l
                 ............                        ...............................




        60



        40	                                                                              ... ....... ...4.. ....
                                                                                       ..4
                                                                                         89%
                                                                                                       93%
         20



             0
                     Names                   SSNS


                         Basic Information             Referral                          Support
                                                                                                    Collections
                              On   Parents                                               Orders




                     -        current                                              I     I Potential for
                              Performance                                                  Improvement




                                                              10

Estirnute ~ Potential Child Supp~    Collections

our sample of 593 children represented over 260,000 children in non-IV-E foster care
nationwide. Because our random sample was stratified, each of our sampled children
represented a different percentage of the universe. To estimate potential child
support collections, we weighted our sample results to represent non-IV-E foster care
children nationwide. The following chart shows our sample and weighted results.


                                                           Sampled           Weighted
                                                            Results           Results

 Number of Children in Non-IV-E Foster Care                   593             260,000

 Percent of Children on Whose Behalf Child
 Support Is Collected                                         7%                9%
 Percent of Children Included in a Support Order             1170               12%
                                                      I                 I
  Percent of Parents Referred to Child Support        I      29V0       I       35940

The table on the next page shows possible child support collections nationwide that
could have been collec~e~ in 1991 if child support wire pursued on behalf of non-IV-E
foster care children. We assumed all parents of foster care children have incomes and
ability similar to the parents of the children in our random sample.

We know, however, that both biological parents of every child in non-IV-E foster care
will not be identified and located. Further, some parents that are located will be
unable to pay child support because of inadequate income. Finally, in some situations
it is not in the best interests of a child to pursue child support collections. For these
reasons and because the child support collections formula varies by State, we
conservatively limit our estimate of potential child support collection, as shown in the
table on the next page. If child support collections were made on behalf of half of the
children in non-IV-E foster care, $193.8 million would have been collected in 1991.

Administrative costs of collecting child support would reduce the amount of collections
available for improving child welfare services. However, the administrative costs to
child support enforcement agencies can be lessened if foster care agencies (1) obtain
adequate information on parents when a child enters the system,5 and (2) refer all
appropriate cases for services.



     s T~te administrative cost of collecting this information would be minimal because
foster care caseworkers generally obtain information on biological paren~s as part of their
services to the family. Howeveq the caseworker do not enter this info~mation into a
system which can be accessed by child support enforcement stajf



                                             11

         ESTIMATE OF POTENTIAL          CHILD SUPPORT COLLECTIONS


 Percent of Children On
  Whose Behalf Child
  Support Is Collected       50%       4090      30%       20%       15%       10YO
   Possible Collections
        (in millions)       $193.8    $154.4     $115.8    $77.2     $57.!?    $38.6

The shaded column shows possible collections if all States achieved the 15 percent
collection rate for non-IV-E foster care children that 2 States in our sample are
already achieving. However, we believe an even higher percentage of parents can pay
child support, and the amount of possible collections would be higher as well.
Appendix C shows in detail how we calculated estimated child support collections.

CONCLUSION

Federal law requires pursuit of child support, where appropriate, from parents of
children in foster care who are removed from low income families. However, no such
law exists to require child support from parents with higher incomes.

Failure to collect child support on behalf of non-IV-E foster care children, where
appropriate, decreases opportunities to obtain needed resources for providing child
welfare services. Since no Federal policies mandate that child support services be
pursued for children in non-IV-E foster care, many may believe that child support
cannot, or should not, be pursued on behalf of such children. Because of this, children
are being denied important services, such as paternity establishment which allows a
child to have inheritance and insurance rights. Additionally, biological parents may be
able to provide medical insurance which covers a child’s medical expenses. Even in
situations where child support is pursued, lack of established procedures often results
in misclassification of cases.

Foster care agencies should review each foster care case and determine if pursuing
child support is in the best interest of a foster care child. In instances where it is
considered appropriate, each case should be referred to child support for collection.
Child support agencies should work cooperatively with foster care agencies to pursue
child support, where appropriate, as a routine part of the process of building parental
responsibility. To do this, States may choose to better manage or change their systems
so that child support will be pursued on behalf of all children in foster care.




                                           12

                   RECOMMENDATIONS

Recommendation       1: ACF should encourage States to extend child support services to
all children in foster care, regardless of the funding source. Some options for ACF to
accomplish this are discussed below.

Option 1: Extend written instructions to States to include all foster care children
regardless of the funding source. Such instructions should encourage State

       foster care agencies to record names, dates of birth and Social Security
       numbers for both biological parents of children in foster care,

       foster care agencies to review each foster care case to determine if pursuing
       child support collections is in the best interest of a child,

       foster care agencies to refer all appropriate biological parents of foster care
       children to IV-D child support enforcement agencies for establishing child
       support orders and collecting child support, and

       foster care agencies and child support enforcement agencies to develop a
       Memorandum of Understanding determining appropriate cases for referral, and
       gathering and exchanging data.

Option 2: Provide specific guidance and plans to States for coordinating foster care

and child support programs, such as including a data exchange link between foster

care and child support enforcement records when developing or modifying automated

systems, and providing child support enforcement agencies with a model system for

classifying and processing child support cases.


Option 3: Seek legislation requiring the pursuit of child support on behalf of

non-IV-E foster care children, “where appropriate,” The legislative requirement

should conform to that presently in place for the children in IV-E foster care.


Recommendation     2: Organizations interested in foster care and child support should

encourage States to seek child support for non-IV-E foster care children whenever

appropriate. Such organizations include, but are not limited to, the National

Governors Association, the National Association of State Budget Officers, the National

Conference of State Legislatures and the National Council of State Human Services

Administrators of the American Public Welfare Association.





                                            13

AGENCY     COMMENTS

The Administration for Children and Families (ACF) generally agreed with the focus

of our recommendations.    ACF noted however, that our recommendation on child

support services should be qualified to recognize that in some instances it would not

be good practice to collect child support from parents of children in foster care. The

ACF welcomes assistance and participation from national organizations interested in

encouraging States to seek child support on behalf of foster care children whenever

appropriate.


The Assistant Secretary for Planning and Evaluation (ASPE) agreed with our

recommendations.     The ASPE noted that child support collections should only be

initiated when it would support a foster care agency’s case plan for a foster care child.

We highlighted this objective in our report. Whether to pursue child support

collections or not should be determined on a case-by-case basis by a foster care

agency. The foster care agency should then contact the child support agency to

pursue collections.


The Child Welfare League of America, Inc. (CWLA) noted that our report makes a

case for stronger collaboration between foster care agencies and child support

enforcement agencies. Further, such collaboration will enhance the financial base for

providing services to children in foster care and promote greater parental

responsibility. The CWLA agreed with our recommendations and are willing to work

with the National Governors Association and the American Public Welfare Association

in encouraging States to seek child support for non IV-E eligible children in foster

care.


The American Public Welfare Association (APWA) received comments on our report

from the (1) State of Washington agency that administers the child support program,

and (2) State of New York agency that administers both the foster care and child

support program. The State of Washington is identified in our report as one that has

had success in collecting child support on behalf of foster care children. They

commented that foster care agencies need to work cooperatively with child support

agencies as a routine part of the process of building parental responsibility. They

concurred with our point that improvements in data gathering will ameliorate many of

the information gaps that presently inhibit effective case management. The State of

New York also supports our recommendations.        They believe our recommendations

are consistent with current Federal and State government efforts to implement welfare

reform and its emphasis on parental responsibility. New York noted its experience

that child support collections on behalf of State foster care children provide significant

reimbursement to the State for expenses it incurs in providing child welfare services.





                                            14

                            APPENDIX                   A


                                  METHODO~GY

Sample Selection

Since no accurate count of children in foster care exists, we used a listing of Title IV-B
appropriations to establish our universe. We selected 10 States with probability
proportional to the appropriation amounts for Title IV-B as our national sample. One
State, Massachusetts, chose not to participate. This reduced our sample to the
following nine States: California, Ohio, Florida, South Carolina, Illinois, Washington,
North Carolina, Nevada, and Texas.

We asked foster care officials in each sampled State to select a random sample of 70
cases from a universe of children who had been in foster care for at least 6 months as
of December 31, 1991. States were instructed to use the same sampling procedures
used to sample for reviews conducted by ACF. We requested States not to include
foster care children funded under Title IV-E in the sample. We verified the
randomization method used by the States prior to actual sample selection. We
conducted our review between March and November 1992.

Information Collection

Using standardized forms, we requested names, Social Security numbers and dates of
birth for both the foster care children appearing in our sample, and their biological
parents. We received information on 630 children; however, we excluded 37 from our
sample because they had been classified as eligible for Title IV-E financial support.
State foster care officials provided us with the names, addresses, Social Security
numbers, and birth dates for each of the remaining 593 sampled children and their
biological parents.

We contacted State child support enforcement agencies in each of the 9 States to
determine which parents of the 593 foster care children had been referred to a IV-D
child support enforcement agency. We asked child support enforcement agencies for
detailed information on any established cases. Using standardized forms we asked
whether a case was currently open, how it was classified, what services had been
performed in the cases, whether a child support order was established, and whether
collections were being made. If collections were made, we requested information on
how the money was distributed.

Using the Social Security Administration’s (SSA) Earning Reference Files (ERF), to
determine earned income, we calculated potential child support that could be paid by
biological parents of sampled children. We used a child support formula of 17 percent
of earnings to estimate potential funds available for child support.



                                           A-1

                            APPENDIX                  B


                          THE FOSTER CARE PROCESS

After a child is removed from a home - occasionally by the police or linked child
protection authorities - the child is placed in some type of emergency care. A removal
order is signed by a court official and a more permanent place for the child is found.
Some States and localities also allow parents to voluntarily place their children in
foster care.

The preferred placement is usually in the least restrictive and most “homelike” setting
where a child will be cared for by foster parents. Usually foster parents are certified
volunteers who take children into their homes. Maintenance payments are for
expenses directly related to care and lodging for eligible children. An eligibility
determination is made to determine which funding sources will cover the cost of foster
care.

Local foster care agencies work with the former custodial parent(s) - usually the
biological parent(s) who last had legal custody of a child - to develop a permanency
plan. The permanency plan is a step-by-step action plan to determine what will
happen with a child. In accordance with the Adoption Assistance and Child Welfare
Act of 1980, the majority of permanency plans are designed to return a child to the
former custodial parent(s) as soon as possible.

Occasionally, a foster care worker (or a parent) will determine that a child can never

return home. This determination is usually reached because problems causing removal

are extreme and insurmountable. For many such cases the permanency plan will be

adoption. For adoption to take place, proper legal proceedings must terminate

parental rights of both parents. This termination can be voluntary or involuntary. If a

parent is absent and his or her whereabouts are unknown, a “diligent search” must be

made to satisfy legal requirements before a child can be eligible for adoption.


A child’s case must be reviewed every six months and the permanency plan updated.

The family’s progress towards improving the home situation is tracked by an assigned

foster care case worker. In cases of voluntary placements, a child must be returned to

the parent(s) upon his/her request, or the agency must seek court-ordered custody.


Coordination between foster care and child support programs begins with a referral

from a foster care agency. The child support enforcement agency attempts to locate

an absent parent(s). An “absent parent” is a biological parent not residing in the

home the child is in. Paternity will be established if necessary. The child support

enforcement agency will go through the court proceedings to establish a support order.

A support order is an order issued by a court requiring an absent parent(s) to provide

child support. The agency will then collect monies from the absent parent(s) and

distniute them in accordance with the court’s ruling and Federal regulations.



                                          B-1
                             APPENDIX                   C


        ESTIMATION      OF POTENTIAL       CHILD SUPPORT COLJ..JXXIONS

Recompleted      anearnings  search on317parents,    or26.7percent    of the 1186 possible
parents of children in our sample. The reason for alowpercentageof          parents with
reported earnings is that foster care records lack the basic information on parents,
such as names and Social Security numbers (SSNS). For example, foster care agencies
were able to provide us with 836 names of parents and 570 SSNS for 1186 parents in
our sample. Further, some of the information we did receive was invalid, e.g. the SSN
did not match the name.

Data obtained from the Social Security Administration showed the 317 parents earned

$~372,800 during 1991. Because of State variations in formulas used for calculating

child support, we could not find a formula that was applicable to all States.

Therefore, we based our estimate on 17 percent of income -- a formula used by

Wisconsin. This calculation showed that, theoretically, $403,376 could have been

collected by child support enforcement agencies from 317 biological parents of

sampled children in foster care during 1991.


We chose the 17 percent for several reasons.  First, we could not obtain consensus
among ACF officials on what percentage to use. Several ACF officials referred us to
Wisconsin which uses 17 percent of income for child support. Second, regardless of
what percent we used, potential collections would not be precise for each State.
Actual collections vary by State depending on their individual child support formulas.
Third, collections vary depending on numerous factors unique to each individual case.
Therefore, we could not account for all the possible factors affecting collections.

National projection of possible child support collections

To estimate how much could be collected nationally, if child support were pursued on
behalf of children in non-IV-E foster care, we made several assumptions.

First, we do not have an exact number of children in non-IV-E foster care. Several
estimates place the total number of children in non-IV-E foster care in 1991 nationally
to be over 260,000. Assuming this number, each child has 2 parents for a total of
520,000 parents who could possibly support their child.

We assumed all biological parents of foster care children have earned incomes similar
to the 317 parents of children in our random sample. Further, we assumed a child
support formula used would approximate     17 percent of earned income.

We know, however, that both parents of every child in non-IV-E foster care will not
be identified and located. Further, some parents that are located will be unable to
pay child support because of inadequate income. Finally, in some situations it is not


                                           c-1
in the best interests of a child to pursue child support collections. In the Title IV-E
foster care program, for example, parents are referred to child support enforcement
agencies for possible collections “where appropriate.” We believe a similar standard
should be applied for children in non-IV-E foster care. In situations where a child’s
safety or w~l~-being would be jeopardized, child support should not be pursued. In
foster care cases where parental rights are to be quickly terminated, pursuing child
support collections could also be inappropriate.

The table below shows possible child support collections which could have been
collected in 1991 if child support were pursued from specific percentages of the
520,000 parents of non-IV-E foster care children.


                  Estimate of Potential Child Support Collections
                    For Non-IV-E Foster Care Children in 1991

  Percent of Children
   On Whose Behalf         50%       4070          30%      20%     15%        10%
   Child Support Is
       Collected
  Possible Collections
      (in millions)       $193.8    $154.4         $115.8   $77.2   $57.9     $38.6

The dollar figures shown above are based only on biological parents’ earned income.
Other income sources, such as disability payments, dividends or investment income can
also be used to pay child support. In our sample over half (55 percent) of the child
support actually paid in 1991 came from parents who had no reported earned income.
Additionally, biological parents may be able to provide medical insurance which covers
a child’s medical expenses.




                                             c-2
           APPENDIX               D



             AGENCY   COMMENTS




ADMINISTRATION   FOR CHILDREN AND FAMILIES


ASSISTANT SECRETARY    FOR PLANNIN G AND EVALUATION


CHILD WELFARE    LEAGUE      OF AMERICA   INC.


AMERICAN   PUBLIC WELFARE      ASSOCIATION





                      D-1

     *4
          #
              * $--,    ‘




                       .%
                            .
              4
�
*4
5                                  DEPARTMENTOF HEALTH& HUMANSERVICES

:s

 %

  *+.                              —
                                                                                              ADMINISTRATION FOR CHILDREN AND FAMILIES
                                                                                              Office of the Assistant Secreta~, Suite 600
                                                                                              370 L’Enfant Promenade, S.W.
                                               March 29,    1994                              Washington, 11.C. 20447
                                                                                                                   15
                                                                                                                   me                d
                            To:	               June Gibbs Brown                                                     PDIG
                                               Inspector  General
                                                                                                                    %?                5
                                                                                                                    mG4X
                            From:              Mary Jo Bane                                                         Ax_J              =
                                               Assistant  Secretary   for               ~%~
                                                 Children  and Families                                                                   \
                                                                                                                    DATE     SENT     ~
                            Sub] ect:	         Comments      on Office       of Inspector           General     Draft    Report:
                                               “Child    Support     for     Children     in       State    Foster    Care,”
                                               OEI-04-91-00980

                            Thank      you   for the opportunity     to submit    comments on your draft
                            report       of  a study   conducted   on the potential     for collecting      child
                            support       payments   from biological     parents    of children    in State
                            foster       care programs.

                            General       Comments

                            There are several    areas    in the report    regarding     the                       use of title
                            IV-B child   welfare   funds,   and title   IV-E eligibility                            requirements
                            which should   be clarified.

                            Title   IV-B funds             should  be expended   by the States                   on child
                            welfare    senices,             not foster    care maintenance   as                 could be      assumed
                            from information               in the report.

                            States   m~ expend a limited              amount of title       IV-B funds      for foster
                            care maintenance,         however,     according     to section       423(c) (1) of the
                            Social    Security      Act, there     are restrictions         which apply       when Such
                            funds   are used-for        maintenance.        The overall      goal    of the     title
                            IV-B child      welfare     program     is to keep families         together      through
                            the provision       of social      services     so that,     if possible,       children
                            will   not have to be removed from their                 homes.

                             Regarding   title     IV-E foster       care eligibility,          the draft   report
                             indicates   that    title    IV-E foster     care      eligibility     is based     solely
                             upon a child’s      removal     from the home of afi Aid t~ Families                with
                             Dependent   Children       (AFDC) family.        The AFDC linkage          is only one
                             of several    title     IV-E eligibility       criteria.

                             OIG I?ecoxrunendation            1:

                             ACF should   encourage    States   to extend       child   support  services     tO
                             all children    in foster    care,   regardless       of the funding     source.
                             Some options    for ACF to accomplish         this    are discussed    below.

                             Option       1:    Extend     written       instructions         to    Stateg.to      include      all
                             foster care children regardless of:-th~;

                                                                    @@.&,is6urce.                                            Such

                             instructions should encourage State’-

‘   Page     2   -   June   Gibbs   Brown

             foster care agencies to record names, dates of birth, and

             Social Security numbers for both biological parents of

             children in foster care,

             foster care agencies to refer all appropriate biological

             parents of foster care children to IV-D child support

             enforcement agencies for establishing child support orders

             and collecting child support, and


             foster care agencies and child support enforcement agencies

             to develop a Memorandum of Understanding determining

             appropriate cases for referral, and gathering and exchanging

             data.

    Option     2:       Provide     specific guidance    and plans    to   States      for
    coordinating           foster    care and child   support   progr-,         such.~s
                                                                                    .-
    including a data exchange link between foster care and child
    support enforcement records when developing or modifying

    automated systems, and providing child support enforcement

    agencies with a model system for classifying and processing child

    support cases.

    Option 3:  Seek legislation requiring the pursuit of child
    support on behalf of non-IV-E foster care children, “where
    appropriate.“ The legislative requirement should conform to that
    presently in place for the children in IV-E foster care.

    ACF Comments

    The ACF does not disagree with the direction of this

    recommendation. However, recommendations concerning child

    support for children in foster care should be qualified to
    recognize that in some instances it would not be good practice to
    seek (or to seek immediately) to collect support from parent(s)

    of children in care. The major goal of the title IV-E foster

    care program is the reunification of children with their

    families. Premature or ill-timed efforts to collect child

    support payments from a parent could jeopardize and complicate

    reunification. The pursuit of child support from the ex­

    custodial biological parent may be inappropriate if the

    conditions are temporary, such as hospitalization or

    incarceration of the parent. In too many of these cases, the

    absence of child support payments from the non-custodial

    biological parent, for any number of reasons, also contributed to

    the poor financial conditions of the family.

,,
     .1




          ‘Page 3 - June Gibbs Brown

          State     foster     care agencies       are now, and have been since              the
          inception        of the child      support     program   in 1975, able        to apply for
          and receive        Ehe full     range    of non-ZWDC child        support     senices
          from the State          w-l) agency.       currently,    the foster       care a9e~Cy
          makes a referral            and pays a very nominal         application       fe@ (In -Y
          States      $1) for IV-D services.              This fee need be paid         only one
          time by the 131-13 agency,            and the application         may be for one child
          or several        children.

          The ACF’S Automated Svst ems for Child Support Enforcement: A
          Guide for States, revised June 1993, addresses the requirements
          for certification of State child support automated syst-:
                 flThe   ~ysf-~   must        automatically   accept   and process
                 automated referrals from the IV-E agency if the State

                 IV-E system is automated.

                 “Alternative: If the Title IV-E agency is not

                 automated, procedures must be established to ensure

                 timely transmittal of information from the IV-E

                 agency.”

          The system must record the date the referral is received and must

          be able to link two non-custodial parents to a child(ren) in the

          custody of the IV-E agency. The system must also accept and

          process a number of data elements, such as the IV-E case

          identification number, the IV-E case status, the IV-E approval

          date, the IV-E payment amount, and many others.

          OIG Recommendatf.on            2:

          Organizations interested in foster care and child support should

          encourage States to seek child support for non-IV-E foster care

          children whenever appropriate.

          ACF Comment

          The ACF would welcome the assistance and participation of other

          organizations, such as those named in Recommendation No. 2, in

          this work.

          Technical      Comment8

          Appendix C of the report notes that the formulas used for

          computing child support obligations vary from State to State.

          For a ‘simple way of estimating child support collections

          nationwide” the report used 17 percent of income--a formula used

          by Wisconsin for one child. This presumes the cases involve only

          one child. We recommend that the OIG consider how many children

          a “typical” foster care case involves in making their

          computations of a theoretical amount of child support available.

.. &
.=+.’.’’’.:’:’$--’

 :.
                       “““   --   ~   “,   .._   _

                      -- DMARTMENT oF i-iEALTH& HUMAN                SERVICES
                                                                                           ...   -.   Office of the Secretary
 ;
   %-
                                                                                                      Washington,   D.C. 20201


                                                                   FEB    i ~

                 TO:	                 JuneGibbs Brown
                                      Inspector General

                 FROM:	               Assistant Secretary for
                                      Planning and Evaluation

                 SUBJECT:	            Draft OIG Report: “Child Support for Children in State Foster Care, ” OEI-
                                      04-91 -00980--CON’D~ONti    CONCURRENCE


                 I appreciate
                          youroffice’s
                                   inquiry
                                        into
                                           this
                                              subject
                                                   andIfoundthis
                                                               draft
                                                                   report,
                                                                        andtheone

                 whichaccompanied
                                it,
                                  “Incorrect
                                          Distribution ofChildSupport  Collected  onBehalf
ofNon-
                 IV-EFoster
                          Children,”    and informative. Both have the potential to make important
                                   helpfi.d

                           tothechild
                 contributions            andchild
                                    welfare         support       I am in general agreement with
                                                           fields.

                 the recommendations of the draft report which is the subject of this memorandum and I
                 concur with it provided the following points are developed more fully.

                 First, I believe it is critical for the draft report to highlight that collection of child support
                 from parents with children in foster care should only be pursued in instances in which this
                 action would support the child welfare agency’s case plan for the child. tie *odd be
                 taken to make clear that this determination should be made on a case-by-case basis. It is
                 clearly not appropriate for all foster care cases.

                     Second,
                           thedraft
                                  report
                                       should
                                            emphasize
                                                    thatininstances
                                                                whenthis

                                                                        h considered

                     appropnate,t.hewelfare
                                child           rather
                                          agency,               support
                                                     thanthechild           should

                                                                      agency,     maket.his

                     determination            compliance
                               andthenincorporate            ofthechild’s

                                                        aspart         caseplan.Thechild

                          agency
                     welfare         thencontact
                                should         thechild     agency
                                                      support            collection.

                                                                 topursue


                     I understand
                               that
                                  ourstaff
                                        havetalked
                                                informally
                                                       andYouroffice
                                                                  k comfortable
                                                                            ‘making

                                                                                 these
                     modifications    report.
                              tothefinal





                                                                David T. Ellwood
Cwu                                                 Child Welfare League of America, Inc,
                                                     440 First Street NW Suite 310 Washington, DC 20001-2085    �   202/638-2952.   FAX 202/6384004




PRESIDENT
John F Merchant
                                                                                          m
                                                                                          SAm
                                                                                                           *

                                                                                          Z&s

VICE PREsIDENTS
Anne Ouncan
Judl!h Sherman

Rulhann     S Yamanaka
                                       February 3, 1994                                                    *                          --G        . .

                                                                                          ~—                                            .,       -n
SECRETARY
                                                                                          NGMP             ,-                         .-=        n
                                                                                                                                                 ;?     -J’J
Mar@7     Cox                                                                                                                         -’-1
                                                                                                                                      , ,T
                                                                                                                                       .-.4    “’~’   l-n
ASSISTANT SECRETARY                                                                                                                           ,:; ~.i ~
Norman      W Powell. Jr
                                       June Gibbs Brown                                   mm-                   “                      1     :.=-l-
                                                                                                                                            ‘.’;~: m
                                                                                                           z
TREASURER
                                                                                                                                      +              —
                                       Inspector General                                                                                      -: :7) <
Rochard H Flemmg
                                       Department of Health and Human Services                                                         “.— -:m   :> G
ASSISTANT TREASURER
Raymond       P Carpemer               330 Independence Avenue, SW                                                                     F.>
                                                                                                                                        ..       A
                                       Washington, DC 20201                                                                            ‘n         -m
BOARD OF DIRECTORS
                                                                                                                                       k...
Carol Armstrong
Charles     L. Baker
JudOh S. BIOCK                         Dear Ms. Brown,
Sheryl Br,ssett.Chapman
Saran Bryanl
Nan Da!e                               Thank you for forwarding to us the draft inspection report, Child Suppontfor C%ildrenin State Foster
Charles     A DeGrandOre
Jeanette      Ounckel                  Cizre. We appreciate your efforts to analyze child support payment activities on behalf of non-IV-E
Charles     A Haas
 Ken! !- Henderson

                                       eligible children in foster care. Your findings clearly make the case for stronger collaboration
George      T Hubbard                  between foster care agencies and child support agencies to enhance the tlnancial base for providing

 Mao Efell Hurley

 Ann O Jordan                          semices to children in foster care and to promote greater parental responsibility.
 James M Karet
 Glynn O. Key

 Karl G. Kmg                           With regard to our specific comments, we would like to share the following:

 Suzanne      S Megathhn
 Elba Montalvo
 Rob Mosbacher.          Jr                    +       Page 2: While Tkle IV-B may serve as a source of federal finding for foster care

 Timotny F Moelker

 M!chael     R Oslrowskl                               maintenance, the requirements in P.L. 96-272 limit the use of Title IV-B funds for

 Jane K. Patne
 R)chara G Plufka

                                                       child day care, foster care maintenance payments and adoption assistance payments

 Slepname       G. Robinson                            to the 1979 Title IV-B appropriation of $56.6 million. Because of this limitation and

 Maolyn      R Seymann

 P Stanley      Shavers                                states’ needs to finance child welfare services with Th.ie IV-B funds, Th.le IV-B has

 S Norman        Sherry                                not been a viable source of funding for foster care maintenance payments. Stateand

 Farth Sm#th

 Pamela      K. Steele                                 10CS.I

                                                             funds are the primary funding mechanisms for foster care for non-IV-E eiigible
 Manna      Stenms

 Susan S. Step(eton
                                                       children, a fact that you may wish to emphasize in the description.

 George      W Swan III
 JOhn G Theban
  Mary Y Tull                                  +       Pages 2 and 5: The list of Foster Care Services includes “refer parent(s) and child
  Cheryle     Wdls-Malthewa
                                                       for child support services” as a foster care fimction and lists this function before
  HONORARY           MEMBER
  Mm      Ben W +fememan
                                                       planning for the child’s long term welfare. Likewise, the discussion of “State Foster
                                                       Care Agency Records Are Inadequate for Pursuing Child Support” appears to suggest
  EXECUTIVE DIRECTOR
  Oawd S L$ederman                                     that routine and systematic collection of information for pursuing child support is a
  DEPuTY DIRECTOR                                      primary responsibility of foster care agencies. It should be recognizedthat foster care
  Sh#rley E Marcus                                     agenciesare legally charged with protecting children and ensuring safe and nurturing
  WESTERN OFFICE                                       care for children outside of their parents’ homes when necessary. collecting
   762 W Cypress Avenue
  San D!mas. CA           91773                        information to pursue child support is, at besb a secondary function. By contrast,
  909/599-4565
   FAX 909/599.        7281
                                                       child support enforcementstaff ~ primarily charged with collecting informationon
  Jean McIntosh                                        parents and establishing a child support case. As a consequence, it is hardly
   OirectOr
                                                       surprising-and, in fact, would be expected-that child support agencies have more
   CWLAICANAQA
   180 Argyle Avenue
                                                       complete information on this issue than foster care agencies.
   SUlfe3 ~z

   Ottawa.      ON   K2P      f B 7

   6 13/235-4412

   FAX 6 13/788-5075

   Sandra G. Scarth

   O,recror

‘Cwiiiiiiii        Guarding Children’s Rights                 �   Serving Children’s Needs




    February 3, 1994
    Page 2.



            +	     Pages 9-12: We certainly agree that “States Can Increase Child Support Collections
                   through Better Management of the Process” but we urge you to recommend that child
                   support agencies become actively involved in the process. Placing yet another non-
                   protection fiuxxion on foster care agencies to collect infonsation and refer parents is
                   unrealistic without an active collaboration with the child support agency.       Simply

                   stating
asyou do on page 11 that “the administrative cost of collecting the information
                   wouid be minimal because foster care caseworkers generally obtain information on
                   biological parents., but do not enter this information.. .“ fails to acknowledge (1) tie
                   role of foster care and (2) the nature of the relationship between foster care workers
                   and the parents with whom they are working. Child support agencies need to give
                   priority to developing collaborative relationships and interagency procedures with
                   foster care agencies. This emphasis should be included in the last paragraph on page
                   U.

    Your recommendations are excellent, particularly Recommendation 1, Option 1 as it recognizx the
    collaboration required between foster care and child support agencies. We also strongly support
    Recommendation 2 and would be happy to work with organizations such as the NGA and APWA in
    encouraging states to seek child support for non-IV-E eligible children in foster care.

    Thank you for your excellent work. Please let us know if we can be of any assistance.

    Sincerely,


    TM8L.L-.
    David S. Liederman
    Executive Director
3F   B+:APIVA                    : 2-28-94 ; 2:14PM ;                2022898555+                 4750487:P       2/   5




                                           sIATEC)F
                                                  WU-llNCiTON
                      DEPARTMENT        OF SOCIAL AND HEALTH SERVICES
                                                                                                    .-,         =.
                                    K) 80%9162   �   ~~   WA 98507-9162                             Q           -n
                                                                                  ,,                =           n
                                                                                                    -—.          T7X)
                                             February 11, 1994                                       ->
                                                                                                     -2      :;>7’ m
                                                            IG                                               ~- ,c+ ~
                                                            SAIG                                      I       -n  -. —m
                                                                                                               .2 -b.
                                                            PDIG                                             .. V)<
      Cathleen Tuoker                                       DIGAS                                    /--
                                                                           +                         ---
                                                                                                     —          -: m
      American Public Welfare Association                   DIG-EI                                              ‘n
                                                                                                                ..—u
      810 First Street, NE                                  DIG-CM
      Suite 500
      Washington, DC 20002-4267                             S:S=
                                                             DATE   SENT
                                                                                  I

      Re: Draft Inspector General Report on Child Support for Children in State Foster Care

      Dear Ms. Tucker:                                                         &/-~$Lpf--     @&l@

      Thank-you for the opportunityto review and amment upon the draft report of the ltispector
      General on child support for children in state foster care. As our state was one of the nine Sbtes
      sampled for information collection, we were particularly interested in both the findings and
      recommendations set out in the report. We agree that foster care agencies need to work
      cooperatively with childsupportagencies to pursuechildsupportaS a routinepart of the process
      of building parental responsibility.

      The specific recommendation tnat tho Administration for Chiidren and Families encourage states
      to extend chiid support services to ali children in foster care, regardless of funding sou~, is a
      concept already endorsed by Washington. We concur that improvements in data gathering and
      referral systems wili ameliorate many of the information gaps that presently inhibiteffective case
      management-

      Based on an internal review oonducted last year, our own oonciusion was that an increase in the
      communication”and coordination of responsibilities between foster care and child support
      enforcement agencies wouid prMt all sewice recipients and stakeholdere. The major benefits
      anticipated to flow from implementation of these recommendations would be an increase in chiid
      support ooilections, increased paternity establishment and location of absent parents.

       To these ends, the foliowing recommendations were made:

                1,	   Development of anautomated coileotion distribution program to complywith federal
                      distribu~on regulations.

                2.	   Proposed development of an electronic foster care case referral process with
                      enhanced data provisions.

                3.	   Proposed development of an electronic data exchange system between the chiid
                      support agency (IV-D) and the foster care agency (IV-E and State Oniy).
                             ; 2-28-94    : 2:14P!U ;             202289653s+                   47s04i37; # 3[   3




       4.      Proposed on4ine accew to the foster care oaee management data base.

       5.	     Development of coordinated training tracks for child suppoti and kwter oam staff
               which provide an OWWOW of each agency’s reciprocal intmeta and Spf3Cific
               program requirements.

       6,	     Ongoing issuance of appropriatepolioydar&stions and direodves that afticutate
               program requirements and best pracdces.

       7.	     Development of a joint work group, staffed by both child support and foster care
               employees, to develop strategies and solutions for specific issues, to broaden
               interagency communicationon ail levels and to form the nudeue of a Mwok fOr
               mntinuing communication.


Comments on the Dmft Report

The stated purpose of the d@ report is “to determine potential for collecting child support from
biologicalparents of children in State foster care programs.” In examining the question, the repofl .
began to set out the impediments to effective referral of state funded foster care cases and
posited a methodology for estimating potential collections. This was a good beginning. Bluntly,
our concern is that the analysis in the report did not go far enough in identifying impediments to
refenal, suppott order establishment and collectionand that the estimate of collection potential
did not reflect a more realistic assessment of the demographics of the responsible parants.


Impediments     to Effective Case Referral and Child Support Order Estebllahment                  ati
Collection

AS Appendix E in the draft report describes, children entering the foster care environment are not
always voluntarily placed.        Children are sometimes removed from the household under
circumstances that oan best be described as requiring emergmt intervention. Parents of thw
children are generally not cooperative, in the sense of voluntarilyprovidinginformation thatwill
lead to filling in all the blanks on a child support referral. This, in turn, means that referrals tend
to be incomplete withcmt fault to the foster care agenoy.

The lack of cooperativenessfurtherextends to the arena of paternityestablishment. For example,
in an AFDC case, an uncooperative mother may be sanotfoned for not partidpating in the p~e$$
of establishingpaternity, No similar remedy exists for an uncooperative mother in the We Only
foster care case. Adding requirements to Individual Servioe Plans and plaoement orders which
require parents to participate in paternityestablishmenteffortsis only marginallyeffeotive,in that
it presumes the parties are truly interestedin family reconciliation.

Our study also noted a lingering perception among foster care professionals that referral to the
child supportagency was detrimentaltofamily reconciliationefforts. The additionalfinancialstrain
imposed by a child support obligation on a family already in crisis is the food point for that
perception. Overcoming this impressionis a matter of education and training and of identifying
solutions which take into consideration the financiai issues reieed.
                           ; 2-28-94: 2:1- ;                  2fJ2289835S-                 47s0487;%    41   5




Factors Limiting the Coll@ion         Potential From Parentaof Children lnStat.      Only FoSter
Care

The draft report estimates a population of 520,000 parentsfromwhich suppotlWOUlCl   be oollected.
In arriving at this estimate, the number of children (260,000 nationwide) was rnu}tiplied by two.
Income data, obtained from the Social Security Administration, was then used to oalcuJatea
potential earnings base, Finally, a child support formula of 17 percent of earned inoome was             “
used to net out a potential collection figure.

{t must first be noted that Washington agrees that there remains an untapped collection potential
from parents in State Only foster care. However, each of the applications in the draft report make .
significant assumptions or ignore significant faotors which tend to reduce cxdlection potential.
Neither postulating or creating an account receivable is equivalent to aotually collecting the
amounts due. Efforts to accurately measure collection potential must both evaluate the amount
of the receivable and the likelihood of successfully collecting the soheduled obl~gation. A review
of the magnitude of existing receivables and the rats of cdeotion on IV-E Foster Care, AFDC,
and Non-Assistan~ oases could provide instructive data.

Additional factors to consider are:

        1.	    Not every child has two parents from whom supporl maybe collected. Aside from
               issues such as abandonment and the death of a parent, which may lead to foster
               care placement, a child’s parent may simply not be able to be Iooatad.

        2.	    Many placements involve siblings. Either siblings remain in the household from
               which the child in care was removed or the siblings are all removsd from the
               household. Our review of Washington data indioates that this often oocurs. Where
               other siblings are involved, a clifferent (lower) per child support formtila is
               appropriate which consider%the multiple child ecenario, Where other siblings are
               involved, and remain in the household, one or both parent’s earning ability maybe
               dramatically affected.

        3.	     Many placements involve family reconciliation efforts, Counseling, treatment and
                other expenses @ trying to bring the family unit back together are often reasons
                for dramatic reductions in child support awards, h Washington, for example, a
                deviationfrom the scheduledchild support obligation is available for reconciliation
                costs.

        4.	     State law may limit collections of child support in some circumstances. For
                example, child support collections may be limited to the amount of the expenditures
                actually incurred by the state.

         5.	    State law may provide other deviations from scheduled support obligations
                particularly petiinent to children in foster care. These maybe extensive mediod
                bills, specialized care and edudon, or simply the continuing cost of maintaining
                a hou=hold for the child to return to after placement. Parents may also face
                unique transportation costs for children in foster oare.

 These factors should be addressed by the report and the collection potential revised in light of
 the limitations identified. Just as the draft report alludes to dividends and investment income, and
    ‘h:
“SENT
,1
      APIVA                         ; 2-28-94   ; 2:15PM   :            2022896553+                  47S0487:G   s{   5




        thus wealthier parents, the report should also take noteof parenta with developmental orother
        disabilitieswhich may have promptedthe need for state Intervention.

        All children deserve the supportof their parents. This supportcan be tional,      financial, or by
        in-kind contribution. Foster care agencies and child supportagenctes must work cooperatively
        to ensure that the supportdesewed for children in foster care is made available In a fashionthat
        best meets the intere$ts of each child.

        Extending the benefits of paternityestablishment,child supportestablishmentand child support
        mllectbn to the population  of non-lV-E foster oars chiidmn is a sound concept. Improvingthe
        communicationand coordinationbetween foster oare agencies and child support agena”esis a
        sound recommendation, However, our feeling is that this is only the beginning.

        A unifiedapproach must be developed that teams the effo~ of bothfoster care and childsupport
        staff, Simply increasingthe amount of data collected will no doubt lead to higher child support
        collections,but it will do little to support broader program goals suoh as preservation of the family
        unit and family self sufficiency. We recommend that the scope of this reportbe broadened or that
        an additional study be commissioned to more fully address the issues we have raised in our
        response.

        Thank-you again for the oppommity to review and comment upon the draft report.




        cc: Jerry Friedman
                                 : 3-14-94 : 9:46.Ml ;
                                                                          2Q2289653~-
.,
     NEW YORK STATE

     ‘DEPAR’TMINI         OF   SOCIALSERVICES                       E~(JE~D
     40NORTHPEARL STREET,ALBANY, NEW YORK 122434)001
     MICHAEL J. 00tVUNG                                                   MAR ? ~           SIJSAN V. D!!MERS
                                                                                            LkPWY c~     “ one
         cbmlnsmlw                                                                          ad Gcneai CQWA




                                                            Mmch     2,    1994



     “ Cathleen     Tucker,     ESq .
       Project Manager

       National   Council of State Human $emdces                 Administrators

       American Public Welfare Association
       .91o First  Street, ~.E., suite Soo
       Washington, D.C.     20002


                                                                    Child Support for Children is
                                                                    State Foster Care Programs
                           /6       .4--’                   ‘e:
                                                                    45/” 64;” 9/“   @~~~

        Dear Ms. Tuc er:

                          )’-
              The pu~ose of this letter is to provide you
 with the New York State

        Department of Social Services’   comments on the draft report issued by Che
        Department of Health and Human Semites’ (nD_”)       OffiC&o~&-Inspector
                                                                                  The
        ~cnezal entitled  ‘tChild Support for Children in State Foster Care”.
        draft report recommends that the DHHS Administration for Children and
        Families instruct   the states to extend the admimisbration    of their Title IV­
        D Child Support Enforcement programs to the collection      of support for
        childxen in state-fmded foietex care progrwns.    The Department supports the
        recomnendationa stated in the draft repor~ ae they are consistent with the
        federal end state governments’ ourrent efforts to implement wclfaxe re?orm
        and   its   emphasis     on parental   responsibility.

               New York Statels Child Support Enforcement Program already pursues. the
         establishment and enforcement ef child support orders on behalf of ahildrefi

         in the StaCe’s foster care prcqram. As noted in the draft report, the
         implementation of more effective processes for the transfer of infmmetion
         between a state’s   foster care agency and its child support �nforcement
         agency enableei a state to benefit fxom the collection of support for those
         children.   It is this Statels experience that such collections provide
         significant levels of reimbursement to tlheState for the expenses it incurs
         in the provision of child welfare services.

                       ; 3-14-94   ; 9:mwl         ;



.
                                             -2-




         Thank you for the opportunity to provide comments on this draft

    report. If you require any additimal information in this regard, please

    contact Assist-t  Counsel Anne Binseel of my staff at 518-473-1949.



                                                       Very   tru~y your~,




                                                       SusC~ V. Demers

                                                       Deputy Commissioner

                                                         and General Counsel



    SVD/AJB:   ab
